Peace Corps
Office of Inspector General




Semiannual Report to Congress
April 1, 2008 - September 30, 2008
                 PEACE CORPS

        Office of Inspector General

                                Vision

To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the Agency in achieving the
goals set forth in the Peace Corps Act that Peace Corps Volunteers
help the people of the countries in which they serve in meeting
their needs for trained manpower, and in helping promote a better
understanding of the American people on the part of the people
served, and a better understanding of other people on the part of the
American people.




          Semiannual Report to Congress
         April 1, 2008 – September 30, 2008
                                 TABLE OF CONTENTS


     tHighlights from this Report	                                             1
    	 Message from the Inspector General	                                      1

	 Management and Administration 	                                              3
 	 Agency Context	                                                             3
	  OIG Staffing                             	                                  3

	  Advice and Assistance Provided to the Agency and Others 	                   5
	  Audit and Investigative Activities at Peace Corps/Malawi   	                 5
	  Investigation of Missing Funds at Peace Corps/Guatemala      	               5
	  Investigation of Inappropriate Internet Use                               	 6
	  Office of the U.S. Global AIDS Coordinator                                 	 7
	  Suspension of Peace Corps Programs in the Solomon Islands and the
 	 Republic of Kiribati                                           	            7
	 Accountability of Medical Supplies                          	                9
	 Transfer of Violent Crime Function                  	                        9

    	 Management Challenges                                         	         10

	 Audits                                                                	     12
	 Overview	                                                                   12
	 Summary of Audits 	                                                         12
	 Peace Corps Fiscal Year 2008 Financial Statement Audit        	             12
	 Annual Review of the Agency’s Federal Information Security Program	         13
	 Peace Corps/Azerbaijan: Audit	                                              13
	 Peace Corps/Botswana: Audit	                                                14
	 Peace Corps/El Salvador: Audit	                                             15
	 Peace Corps/Philippines: Audit	                                             16
	 Peace Corps/South Africa: Follow-up Audit	                                  17
	 Peace Corps/Vanuatu: Follow-up Audit 	                                      17

	 Program Evaluations	                                                        18
	 Overview 	                                                                  18
	 Summary of Evaluations 	                                                    19
	 Peace Corps/Albania: Program Evaluation 	                                   19
	 Volunteer Saferty and Security: Program Evaluation	                         20
	
    	 Investigations         	                                                22
	 Overview	                                                                   22
	 Investigation of Embezzled Funds 	                                          23
	 Investigation of Unethical Behavior at an East African Post               	 23
	 Investigation of Metro Transit Benefits                       	             23
	 Investigations of Federal Employees’ Compensation Act Recipients    	     24
	 Investigation of a Missing Volunteer 	                                    24
	 Violent Crimes Against Volunteers                        	                25
 	 Closed Cases                 	                                           25
 	 Active Cases 	                                                           27
 	 Title 18 Criminal and Other Investigations 	                             29
	 Cases Leading to Disposition 	                                            29
	 Active Cases 	                                                            29

	 Tables 	                                                                  31
	 TABLE 1: List of Reports: Audits, Evaluations, and Inspections	           31
	 TABLE 2: Reports Issued with Questioned Costs or Funds Put to
	 Better Use 	                                                              32
	 TABLE 3: Status of Reports Issued by OIG with Costs Questioned 	          33
	 TABLE 4: Status of Reports Issued by OIG with Funds Put to Better Use 	   34
	 TABLE 5: Reports with Recommendations on which Corrective Action
	 has not been completed 	                                                  35
	 TABLE 6: Summary of Investigative Activity 	                              36
	 TABLE 7: Summary of Hotline and Other Complaints	                         37
	 TABLE 8: References to Reporting Requirements of the Inspector
	 General Act	                                                              38
the Inspector   General Act 	    36
Highlights from this Report

                      Message from the Inspector General


                          I am honored to have been appointed to the position of
                          Inspector General for the Peace Corps on May 25, 2008 and
                          given the opportunity to work in an Agency devoted to world
                          peace and friendship. I am pleased to present the first Peace
                          Corps Office of Inspector General (OIG) Semiannual Report
                          to Congress since my appointment. This report summarizes the
                          accomplishments of the OIG from April 1, 2008 to September
                          30, 2008.

                        Our auditors have continued their critical work in connection
 with the Agency Financial Statement audit by assisting the Agency in improving the
 overall financial health of the Peace Corps in accordance with the requirements of
 the Federal Managers Financial Integrity Act and the Federal Financial Management
 Improvement Act. During this reporting period, our auditors also issued audit
 reports of Azerbaijan, Botswana, El Salvador, and the Philippines, and follow-
 up audit reports of posts in South Africa and Vanuatu. In addition, the auditors
 provided valuable advice and assistance regarding: internal controls in Guatemala;
 performance of cashiering and accounting for host country contributions in Malawi;
 remediation of a deficiency related to the accountability for medical supplies at Peace
 Corps posts; development of a coordinated audit approach for the Global HIV/AIDS
 Initiative; and the suspension of posts in Solomon Islands and Kiribati.

 During this reporting period, the Evaluation Unit began to implement the new
 evaluation process that they developed during the prior reporting cycle. Utilizing the
 new approach, the evaluators performed fieldwork and issued preliminary reports
 for post evaluations in the Dominican Republic and Nicaragua. In addition, the
 evaluators issued two final program evaluations: Volunteer Safety and Security, and
 Peace Corps/Albania.

 Our criminal investigators have been pursuing a variety of investigative initiatives
 this reporting period. Investigations conducted at Peace Corps posts uncovered
 an embezzlement of $55,146 by the cashier at a Peace Corps post in Africa
 and inappropriate conduct on the part of a senior overseas Peace Corps official
 resulting in his resignation. Investigations conducted domestically include a review
 of the Agency’s Metro Transit Benefit (MTB) program and investigation into
 possible fraudulent activity associated with Federal Employees’ Compensation Act


  Peace Corps Office of Inspector General                                     
(FECA). The MTB review did not disclose any fraudulent activity and the FECA
investigations are ongoing.

During the reporting period, the Investigation Unit closed six cases involving violent
crimes committed against Peace Corps Volunteers, and has seven active cases. On
September 1, 2008, the Peace Corps Director transferred the responsibility for
coordinating the investigation of violent crimes committed against Peace Corps
Volunteers to the Office of Safety and Security. The OIG will continue to provide
assistance in those cases that occurred prior to that date and will assist the Office of
Safety and Security in making the transfer of the function as seamless as possible.
While we take pride in our accomplishments coordinating the investigation of violent
crimes committed against Peace Corps Volunteers, we look forward to turning our
full investigative attention to the traditional mission of Inspectors General to look for
waste, fraud, and abuse in Peace Corps programs and operations.

Finally, the Investigation Unit has partnered with the Office of the Chief Information
Officer to provide advice and assistance on a continual basis in the areas of
unauthorized and inappropriate computer and system use by Agency employees.

The OIG identified three significant Management Challenges that the Agency
will face going into fiscal year 2009. First, post management of imprest funds and
other cashiering operations continues to be a challenge. Second, issues related
to information system certification and accreditation; systems configuration
management; and contingency planning have not been resolved. Third, the budget
shortfall that the Agency is experiencing due to the increase in operating costs abroad
because of the weak U.S. dollar. The OIG is ready to assist the Agency overcome
these and other challenges it faces by working to ensure that Peace Corps programs
and operations are free of waste, fraud, and abuse.




	                                   Kathy A. Buller
	                                   Inspector General	




                 Semiannual Report to Congress   April 1, 2008 - September 30, 2008
 Management and
Management      Administration
            and Administration


                                        Agency Context

  At the end of FY 2008, 7,876 Peace Corps Volunteers and Trainees were serving in
  76 countries at 70 posts. This total includes 241 Volunteers and Trainees funded by
  the President’s Emergency Plan for AIDS Relief (PEPFAR) working on HIV/AIDS
  projects in 11 countries. Thirty-six Peace Corps Response Volunteers were serving
  overseas in short-term assignments in nine countries; thirteen of the Peace Corps
  Response Volunteers were funded by PEPFAR.

  The Volunteers and their programs are supported by 843 American direct hire
  staff: 205 overseas; 101 in the regional recruiting offices; and the remaining 537 in
  headquarters. Approximately 2,000 locally hired personnel complete post staffing.
  The Peace Corps also has corporate contracts domestically and overseas, principally
  for guard services and training, and hires expert consultants, largely for training and
  financial management.

                                          OIG Staffing

  During the reporting period, the agency filled the position of Inspector General. The
  new Inspector General, Kathy A. Buller, brings a great deal of government experience
  and knowledge to this position. From August 1998 until accepting her position at
  the Peace Corps, Ms. Buller had been the Chief Counsel to the Inspector General
  for the Social Security Administration. She began her career as a civil servant with
  the U.S. Agency for International Development as an attorney in the Office of the
  General Counsel in 1983. Ms. Buller later became a project officer with the Office
  of Administration of Justice and Democratic Development working to improve the
  justice systems of the countries in Latin America and the Caribbean. From there she
  transferred to the Office of the Inspector General where she became the Deputy Legal
  Counsel and ultimately the Assistant Inspector General for Resource Management.
  Ms. Buller received her Bachelor of Arts Degree and Juris Doctorate from Creighton
  University where she was a member of the Law Review and Jessup International
  Law Moot Court Team. She continued her legal education and received an LLM in
  International and Comparative Law from Georgetown University.

  Heather Robinson joined the OIG in June 2008 as an evaluator. Previously, Heather
  was a manager at a local management and IT consulting firm where she focused
  on assessing and improving performance through business process re-engineering
  and project management. She also developed and led the company’s first corporate
  giving program. Heather has also provided volunteer consulting services to


       Peace Corps Office of Inspector General                                      
numerous nonprofit organizations. Heather earned a bachelor’s degree in business
administration and organizational behavior from Boston University and a Master of
Business Administration from Yale University.

Bradley Grubb joined the OIG in October 2008 as a senior auditor. Previously, Brad
was an audit team leader in the Department of Defense OIG. During that time he
worked on financial and performance audits of the Army Working Capital Fund,
United States Army Corps of Engineers, American Forces Information Service, and
the Defense Information Systems Agency. Brad is a Certified Public Accountant
and a Certified Defense Financial Manager. He obtained his bachelor’s degree from
Anderson University and a Master of Business Administration from Ball State
University.

Criminal investigator Julie de Mello transferred from the Peace Corps’ OIG in June
2008, to a position with the Department of State’s OIG. Criminal investigator Kevin
Dougherty left the OIG in August 2008. In addition, Technical Audit Manager
Camilla Barror left the OIG in July 2008, for a position at the Nuclear Regulatory
Commission.

At the end of this reporting period, the positions of Deputy Inspector General
and Inspector General Counsel are vacant. The OIG has selected two criminal
investigators to fill the staff vacancies and expects to have them onboard shortly.




                 Semiannual Report to Congress   April 1, 2008 - September 30, 2008
 Adviceand
Advice     Assistance P
        andAssistance Provided
                        rovided
  to the Agency and Others
   to the Agency and Others

 During this reporting period, we provided advice to management on a number
 of serious issues that were brought to our attention. This advice was conveyed in
 written form and through briefings and meetings with the Director of the Agency
 and other senior-level Peace Corps officials.

        Audit and Investigative Activities at Peace Corps/Malawi

 We conducted a joint audit and investigation at the office of Peace Corps/Malawi
 at the request of the Africa Region’s chief administrative officer and the regional
 director. The request resulted from concerns that the circumventing of internal
 control over cashiering operations and accounting for host country contributions
 received from the Government of Malawi may have resulted in an embezzlement
 of funds. Our investigation concluded that internal controls and procedures which
 might have prevented improper activity were lacking, ineffective, or not followed.

 At the post, we reviewed the post’s system of internal control over host country
 contributions and interviewed the cashier and relevant management and staff. We
 examined documents maintained at the post and headquarters related to our inquiry.
 We also requested and examined additional documents from the post’s bank. Our
 audit and investigation identified $55,146 (U.S. dollar equivalent) of suspect
 transactions. As a result, we concluded that there was strong evidence that fraud had
 occurred.

 We pinpointed the control deficiencies and enumerated corrective actions to be
 taken in a detailed report to senior management. Subsequent to the report’s issuance,
 we have provided ongoing advice and assistance to Africa regional management in
 their efforts to strengthen the post’s internal controls to minimize the opportunity
 for recurrence of cashiering and accounting improprieties over host country
 contributions.


       Investigation of Missing Funds at Peace Corps/Guatemala

 We previously reported on the initiation of an investigation of a potential loss of
 funds from Peace Corps/Guatemala. During a routine post audit, we had found a
 lack of effective internal control over the billings and collections process. The purpose
 of our subsequent investigation was to:
 •	 Determine whether funds were diverted by staff members for personal use.
 •	 Determine to what extent the loss of funds was the result of errors and could be
    recovered.
     Peace Corps Office of Inspector General                                       
•	 Examine the post’s policies and procedures in order to recommend improvements
   in the post’s internal control over the billings and collections function.

As a result of our investigation, we determined that refunds due the Peace Corps
totaling $6,911.61 were unaccountable. Our inquiry did not confirm that funds had
been diverted by staff members for personal use or that funds could be recovered.

We have provided guidance and detailed recommendations to the post to help
strengthen its accountability over Peace Corps funds. We continue to provide advice
and assistance as the post works towards improving accountability over Peace Corps
funds.


               Investigation of Inappropriate Internet Use

With input from the Office of the Chief Information Office (OCIO), the Office
of Inspector General (OIG) investigated reoccurring findings of unauthorized and
inappropriate computer use by Agency employees and contractors, including visiting
pornographic websites. In 2006, the OCIO hired a contractor to assess and identify
potential risks, vulnerabilities, breeches, brute force attacks, hacking attempts, and
any other illegal or unauthorized activity occurring on the servers at 53 overseas
posts. After the preliminary analysis, the same contractor conducted a more in-depth
analysis of the data from nine Peace Corps posts to identify potential pornographic
website browsing activity and the user names associated with such activity. This
supplementary analysis triggered OIG investigations at each of the nine posts.

The OIG Investigation Unit investigated the high volume of images and suspect
traffic on the post server to pornographic websites and sex chat rooms. We seized
computer hard drives at three overseas posts. We interviewed U.S. direct hire
and host country national staff to assess misconduct associated with computer
usage. Our coordinated effort with Diplomatic Security Service confirmed that
several government-issued hard drives contained sexually explicit material. Fifteen
host country nationals were identified with accessing these unauthorized and
inappropriate websites. As a result of the OIG investigation, their contracts were not
renewed or they received other disciplinary action.

During the 2007 and 2008 assessments of overseas posts information system logs,
OCIO noted similar patterns of inappropriate activity. In an effort to thwart
unauthorized computer usage, the OIG and OCIO are collaborating to address this
matter. Additionally, the OIG has recently seized computer hard drives at a fourth
overseas post, which is under investigation for both adult and child pornography.

The OIG and OCIO are preparing a Management Implication Report that will
address these findings of unauthorized and inappropriate computer system usage.
Employees, contractors, and Volunteers must follow Agency policies (Peace Corps


                 Semiannual Report to Congress   April 1, 2008 - September 30, 2008
Manual sections 643.5.0 and 542.7.1) that prohibit visiting pornographic websites
and viewing sexually explicit images on their government-issued computer. Our
report will emphasize the cost to the Agency associated with the abuse of official work
time (Title 5 CFR Subpart G 2635.705) and the misuse of government property
(Title 5 CFR Subpart G 2635.704). The report will also stress the importance of
upholding ethical standards of conduct for federal employees, which are addressed
in annual computer security training. In addition, the OCIO will provide cost
analysis associated with losses in productivity because of these inappropriate internet
browsing activities.


                Office of the U.S. Global AIDS Coordinator

We responded to a request from the U.S. Global AIDS Coordinator (OGAC) in a
letter dated March 31, 2008 and a subsequent correspondence from the Department
of State OIG dated July 17, 2008. They requested that Inspectors General for
agencies that receive President’s Emergency Plan for AIDS Relief (PEPFAR) funds
prepare a joint audit plan for conducting a collective, independent financial audit of
U.S. government-wide PEPFAR funds. Accordingly, the Inspectors General for the
Departments of State, Health and Human Services, Defense, Labor, U.S. Agency for
International Development, and Peace Corps have agreed on a coordinated approach
to conducting this audit.

We participated in the coordination meetings that provided advice and assistance
regarding the audit coverage of the PEPFAR program as implemented within the
Peace Corps and assisted in developing the coordinated audit approach. Additionally,
we provided our proposed PEPFAR audit coverage for FY 2009.

As a result of the coordinated effort, the OIGs proposed that OGAC contract with
an independent public accounting firm to perform a consolidated “sources and uses”
audit with the primary objective to track the flow of FY 2004 through FY 2008
PEPFAR funds from initial appropriations to their ultimate expenditures by award
recipients. This entails identifying, by recipient program and benefiting country,
funds received and expended at successive levels for: (1) implementing agencies;
(2) the implementing bureaus and operating divisions/offices of each agency; and
(3) U.S. and non-U.S. partners and non-government organizations (i.e., the award
recipients).

Important additional aspects of the proposed audit include: (1) comparing the
flow of funds with the annual PEPFAR Operational Plan and related summary
data to determine consistency with reported funding allocations and/or uses, and
(2) identifying the type and frequency of current oversight used by federal agencies
receiving PEPFAR funding, including annual financial audits of PEPFAR recipient
entities based on the dollar threshold of expenditures, performance audits, and other
reviews. The proposed audit plan would report relevant information in a consistent,
usable format for all PEPFAR implementing agencies.
     Peace Corps Office of Inspector General                                     
      Suspension of Peace Corps Programs in the Solomon Islands
                     and the Republic of Kiribati

We provided on-site advice and assistance during the closure of Peace Corps offices
in the Solomon Islands and the Republic of Kiribati. The Peace Corps program
in the Solomon Islands was suspended in June 2000 due to safety concerns; Peace
Corps’ presence in the Solomon Islands was terminated September 30, 2008. As
of November 1, 2008, Peace Corps will suspend its program in Kiribati, including
terminating any presence in the island country.

Although the Peace Corps/Solomon Islands program has remained in a suspended
status since 2000, the Peace Corps continued to maintain a limited staff presence
in the capital of Honiara. However, continuation of the limited staff presence and
associated expenditures was determined to be no longer deemed an effective and
efficient use of Peace Corps’ limited resources.

Operations at Peace Corps/Kiribati were suspended due to the lack of dependable
air transportation and the inadequate medical infrastructure. Domestic air
transportation in the Republic of Kiribati has been unreliable for many years. Since
April 2008, only one airplane was available to provide services to the outer islands
where Volunteers had been placed. Medical facilities on outer islands are extremely
limited, requiring the Peace Corps to rely on charter services to evacuate a Volunteer
in the event of a medical emergency. The infrequency of flights could result in a life
threatening delay in providing professional medical care to a critically ill Volunteer.
When planes were not available, staff and Volunteers depended upon boat travel.

During the closure of a Peace Corps office, all assets such as cash, property, plant,
and equipment require special management attention to ensure that they are not
subjected to fraud, waste, abuse, or mismanagement resulting from the closure
process. Our oversight activities included, but were not limited to:
•	 Verifying that all assets were properly accounted for prior to sale, transfer, or
   disposal.
•	 Overseeing the safeguarding of records for retention and proper destruction of
   sensitive records no longer needed.
•	 Verifying and reconciling all outstanding debts, obligations, and payments and
   their disposition.
•	 Observing the sale of property by public auction to ensure that Peace Corps and
   federal policies and procedures were followed.
•	 Verifying that all proceeds from the sale of Peace Corps assets were collected,
   accounted for, and returned to the U.S. Government.
•	 Reviewing personnel actions related to the closure, including the calculation and
   payment of severance, vacation leave, and other payments.
•	 Observing the protection, transfer, or disposal of electronic media such as
   computer hard drives, compact discs, and other electronic media storage.


                  Semiannual Report to Congress   April 1, 2008 - September 30, 2008
•	   Reviewing lease and contract termination procedures.
•	   Observing or verifying the destruction of pharmaceuticals and medical supplies.
•	   Ensuring the return of property provided by the host government.
•	   Performing a final audit verification of the imprest fund prior to the final closure
     to ensure accuracy prior to the final accountability.

We concluded that applicable policies and procedures related to closing the two Peace
Corps posts were sufficiently followed to minimize mismanagement of assets and the
potential for fraud, waste, and abuse.


                        Accountability Of Medical Supplies

During the reporting period, we continued to provide assistance to management by
advising on audit remediation of a deficiency related to accountability of medical
supplies at Peace Corps overseas posts. Each of the Peace Corps’ 70 posts maintains
a medical supplies inventory consisting of pharmaceuticals, controlled substances,
and associated items. The supplies are used in providing medical care for over 7,800
Volunteers who are posted overseas in countries served by the Peace Corps.

OIG audit staff members have actively participated in audit remediation meetings
chaired by Peace Corps management. We have provided expert advice on establishing
more effective internal control and improving accountability of medical supplies.
As a result, Peace Corps management has revised its guidance, including adding
a requirement that all posts use a standardized system for maintaining medical
supply inventory records. Further, based on OIG advice, management has realigned
and segregated its duties and responsibilities related to medical supply ordering,
receipting, and inventory control. We anticipate implementation of the revised
guidance within the next 30 days.


                        Transfer of Violent Crime Function

On July 14, 2008, the Peace Corps Director announced that the responsibilities
under the October 22, 2003 Protocol for Violent Crimes would be transferred
from the Office of Inspector General to the Office of Safety and Security. This was
effective as of September 1, 2008.

Since this announcement, the Investigation Unit has provided briefings and
information to the Office of Safety and Security to facilitate a successful and seamless
transition. The Peace Corps Manual and other directives are being revised to reflect
these new duties and responsibilities. With this transfer, the OIG looks forward to
new partnerships with the Office of Safety and Security.




      Peace Corps Office of Inspector General                                       
The Inspector General’s Statement on the Peace Corps’
     Management and Performance Challenges


      As required by the Reports Consolidation Act of 2000 and Office of Management
      and Budget guidance, I am pleased to submit the following summarizing what I
      consider to be the most serious management challenges facing the Peace Corps. This
      statement has been compiled based on Office of Inspector General (OIG) audits,
      investigations, evaluations and the general knowledge of the agency’s operations.


      Challenge		                   Post Imprest Fund Management and Other 			
      			                           Cashier Operations

      Peace Corps manages cash accounts maintained as imprest funds at 68 posts in the
      countries served.1 The total value of funds flowing through the imprest funds is
      projected to be approximately $19.1 million for FY 2008. The fund’s purpose is
      to manage the numerous day-to-day business activities carried on at Peace Corps
      posts. In FY 2007, we reported that the Peace Corps incurred over $85,000 in
      losses due to embezzlement and theft of funds managed at posts. Incidence of
      imprest fund-related embezzlement and theft leading to cash losses continues to be
      a management challenge. We investigated and confirmed that an embezzlement
      in excess of $55,000 occurred at a post in Africa. The embezzlement resulted from
      failing to follow policy and circumventing internal controls related to separation of
      duties. Also, routine Inspector General post audits during this fiscal year continue
      to disclose problems involving management of the imprest fund and other cashier
      operations. For example, at a post in Central America our audit disclosed a total
      breakdown in internal control over the billings and collections processes resulting
      in unaccounted funds amounting to nearly $7,000. These losses have resulted from
      ineffective oversight and a lack of internal control over the imprest fund and other
      cashier operations. The Agency recently revised and strengthened its policies related
      to imprest fund management. However, many of the problems stem from post staff
      failing to follow policies and provide effective supervisory oversight.


      Challenge		                   Information Technology Management

      Management has made improvements in strengthening the Peace Corps’ information
      technology architecture and security management. However, there are some issues
      related to information security and risk management of system architecture that
      remain a management challenge. The most significant issues follow:	

      1
          The number of overseas posts increased to 70 subsequent to the issuance of this Statement.
      	

            10                  Semiannual Report to Congress        April 1, 2008 - September 30, 2008
        •    Eight of twelve of the agency’s information systems have not received final
        	    certifications and accreditations indicating that they are acceptable to use.

        •    Processes for systems configuration management have not been fully or
             consistently implemented.

        •    Eleven of the twelve Peace Corps systems’ contingency plans have not
             been tested in accordance with National Institute of Standards and
             Technology policy to ensure full recovery following a major disruption of
             service.


Challenge		                Budget Shortfall

Peace Corps’ overall FY 2008 budget derived from appropriated funds is $330.8
million. Approximately 80 percent of the budget is used to directly fund Volunteer
operations at the overseas posts with the balance of the budgetary resources funding
support services. This year’s budget shortfall is estimated to be about $18 million.
The combination of a weak U.S. Dollar and higher energy costs have resulted in
significant increases in operating costs abroad. A large percentage of the overall
annual expenditure to operate 68 overseas Peace Corps posts is made using local
currencies. Losses attributed to foreign currency exchange alone are anticipated at
almost $9 million. Peace Corps managers have been asked to make significant cuts
in their budgets to cover the shortfall and to place a hold on many planned projects
slated to enhance performance in anticipation that the Agency could be operating
at the current budget level well into FY 2009 as a result of a continuing resolution.
Increased inflationary pressures and foreign currency losses will continue to impact
the Peace Corps’ operating budget. As a result, we believe it will be a management
challenge for the Peace Corps to sustain its operations at current levels.


	       	




     Peace Corps Office of Inspector General                                        11
                                    Audits

                                       Overview

The Peace Corps’ OIG Audit Unit focuses primarily on the Agency’s programs,
financial and administrative operations, and personnel that support the Peace Corps’
mission and its Volunteers serving around the world. We accomplish this through
audits of the Agency’s field activities at overseas posts and its administrative support
functions at headquarters and domestic recruiting offices. Although certain audits
may require a team effort, most audit engagements are conducted by a single auditor
under the direction and guidance of the Assistant Inspector General for Audit. For
some highly technical audits, we also contract with independent auditing firms and
engage individual experts. Further, we are charged with the responsibility of assisting
with Peace Corps Hotline investigations requiring audit expertise and specific skill
sets.

Our audit work typically examines Agency operational effectiveness and financial
management. Audit objectives are designed to assess whether good management
practices are being followed, assets are adequately safeguarded, managers are properly
accounting for assigned resources, and operations are being carried out in compliance
with applicable Peace Corps policy and federal laws and regulations. The audits are
performed in accordance with generally accepted government auditing standards
issued by the Comptroller General of the United States.

The Accountability of Tax Dollars Act of 2002 mandates that the Peace Corps
subject their financial statements for audit. OIG contracts with an independent
public accounting (IPA) firm to perform the annual audit of the Agency’s financial
statements. To fulfill our responsibilities we monitor the IPA’s work to ensure that
it is of acceptable quality, in compliance with Federal law and applicable industry
standards, and is completed within the Office of Management and Budget (OMB)
established milestones. We are also responsible for meeting specific requirements
set out by the Federal Information Security Management Act. These requirements
include performing reviews of the Peace Corps’ information systems security program
and reporting related selected data to the OMB annually.


                                Summary of Audits

        Peace Corps Fiscal Year 2008 Financial Statement Audit

During this reporting period, we engaged an independent public accounting firm
to conduct the audit of the Peace Corps’ fiscal year 2008 financial statements. This

   12                Semiannual Report to Congress   April 1, 2008 - September 30, 2008
audit is required by the Accountability of Tax Dollars Act of 2002. At the end of this
reporting period, the audit is ongoing. We intend to issue the audit report by the
mandated reporting date of November 15, 2008, as established by OMB. Details on
this audit will be included in the next Semiannual Report.

    Annual Review of Peace Corps’ Information Security Program

The Federal Information Security Management Act (FISMA) requires federal
agencies to establish security protections and a program to secure their information
systems from unauthorized access, use, disclosure, modification, and other harmful
impacts. This is governed through National Institute of Standards and Technology
guidelines. In addition, FISMA requires that OIGs review their agency’s information
security program and report results to OMB annually on October 1. To meet this
requirement, OMB has developed data collection instruments for reporting from
federal agencies and their respective OIGs.

The reports to OMB are designed to measure the progress of developing and
institutionalizing the agency’s information security program. Preliminary results of
the OIG review of the Peace Corps’ fiscal year 2008 information security program
indicate that the Agency is making progress in becoming fully compliant with
FISMA. Comments on final review results will be covered in the next Semiannual
Report.

                                   PC/Azerbaijan: Audit

We issued our audit report of Peace Corps/Azerbaijan in March 2008. The Peace
Corps opened its program in Azerbaijan in 2003; this was the first audit of the
post. At the time of our visit, 87 Volunteers were working in three projects: English
Education (TEFL), Community Economic Development, and Youth Development.

We found that, in general, Peace Corps/Azerbaijan’s financial and administrative
operations were functioning effectively and complied with Agency policies and
federal regulations. However, there were a few areas in need of improvement. Some of
the more important findings are summarized below:
   •	 Appropriated funds were used for host country national counterpart training
      contrary to Peace Corps legislative authority for such expenditures.
   •	 Management oversight of the imprest fund was inadequate and required
      reconciliations of the fund were often untimely or not performed at all.
   •	 The country director or designee did not inventory medical supplies monthly
      as required by Peace Corps policy.
   •	 Host country contributions were not accounted for in the post’s Operating
      Plan.



     Peace Corps Office of Inspector General                                      13
Management concurred with 28 recommendations. At the end of the reporting
period, all 28 recommendations are closed.

                               PC/Botswana: Audit

We issued our audit report of Peace Corps/Botswana in September 2008. The Peace
Corps entered the Republic of Botswana in 1966, shortly after it had achieved
independence. In light of Botswana’s economic success, the Peace Corps closed its
program in 1997. The severity of the HIV/AIDS epidemic in Botswana resulted in
the Agency’s return in 2003; this was the first audit of the post since its reopening.
At the time of our visit, 55 Volunteers were working in four HIV/AIDS-related
projects: District AIDS Coordinator, Community Capacity Building, NGO Capacity
Building, and Life Skills. An additional 54 Volunteers were sworn in June 18, 2008.

We found that generally Peace Corps/Botswana’s financial and administrative
operations were functioning effectively and complied with Agency policies and
federal regulations. However, we noted areas that needed strengthening. Some of the
more significant findings are summarized below:

   •	 Cash management at the post was not in accordance with Peace Corps
      guidance. For example, local currency was not segregated in a separate
      locked container kept in the imprest fund safe, the U.S. dollar cash box was
      not locked, and the cashier did not change the safe’s combination at least
      annually.
   •	 The post did not complete its analysis of the required “market basket” survey
      for FY 2008 and did not perform the market basket and independent price
      surveys in FY 2007 to ensure that the related allowances paid to Volunteers
      were adequate and tied to current local market costs.
   •	 The manual log maintained by the post through June 2007 to record and
      track billings was inaccurate.
   •	 Weekly review of the post’s vehicle usage logs were not consistently performed
      and related files did not contain written approvals for the non-official use of
      vehicles as required by Peace Corps policy.
   •	 The post’s 2008 official time and attendance records were inaccurate and
      incomplete and did not always match the information on the staff’s time
      sheets.
   •	 The medical unit’s inventory listing of medical supplies had not been updated
      since December 2007 and the country director or designee did not perform
      monthly physical verifications of medical supplies inventories as required by
      Peace Corps policy.

Management concurred with all 22 recommendations. At the end of the reporting
period, all recommendations are closed.

  14               Semiannual Report to Congress   April 1, 2008 - September 30, 2008
                                  PC/El Salvador: Audit

We issued our audit report of Peace Corps/El Salvador in September 2008. We
previously conducted an audit and evaluation of the post, and the report was issued
March 2002. The Peace Corps began its program in El Salvador in 1962; operations
were suspended in 1979 due to security considerations and reopened in 1993. At
the time of our visit, 141 Volunteers were working in four projects: Agroforestry/
Environmental Education, Rural Health and Sanitation, Youth Development, and
Municipal Development.

We found that Peace Corps/El Salvador’s financial and administrative operations were
not functioning effectively and did not fully comply with Agency policy and federal
regulations. We identified several areas that need improvement. Some of the more
important findings are summarized below:

   •	 Contrary to federal budgetary accounting policy, the post approved and
      recorded obligations after the related expenditure occurred. In addition, the
      post lacked supporting documentation for deobligations reviewed.
   •	 The post had not conducted settling-in and living allowance surveys annually
      to ensure that the related allowances paid to Volunteers were reasonable and
      tied to current local market costs.
   •	 The post lacked proper segregation of duties between billing and collection
      activities, and bills and receipts were not always issued to individual debtors.
      Further, the cashier was inappropriately handling cash related to living
      allowance payments.
   •	 The post’s cashier circumvented certain internal controls and overall
      operations were not in accordance with Peace Corps policy and guidance.
   •	 Although personal property belonging to Volunteers was being stored at the
      post, approval had not been granted by the country director. Additionally,
      records for such property were not being kept in accordance with Peace Corps
      policy.
   •	 The post lacked proper segregation of duties between maintaining inventory
      records and performing the annual physical inventory count.

   •	 The post’s purchase card records were incomplete.
   •	 Official time and attendance records for U.S. direct hires did not include
      supervisory approval.
   •	 Market surveys to ensure that Volunteer living allowances are reasonable and
      tied to current market costs were not documented for new leases.
   •	 The post did not properly issue contracts during periods of Agency operations
      under a continuing resolution. In addition, official contracting files were
      incomplete and contractor release forms were not always signed.

     Peace Corps Office of Inspector General                                      15
Management concurred with 62 of 63 recommendations and did not concur with
one recommendation. At the end of the reporting period, 29 recommendations are
closed and 34 remain open.

                              PC/Philippines: Audit

We issued our audit report of Peace Corps/Philippines in July 2008. We previously
performed a combined audit and safety and security assessment of the post in fiscal
year 2002 and a follow-up audit in fiscal year 2004. The Peace Corps commenced
operations in the Philippines in 1961. Since then, over 8,000 Volunteers have served
there. At the time of our visit, 122 Volunteers and three Peace Corps Response
Volunteers were working in three projects: Education; Youth, Children, and Family
Services; and the Environment.

We found that, in general, Peace Corps/Philippines’ financial and administrative
operations were functioning effectively and complied with Agency policies and
federal regulations. However, we found areas which required improvement. Some of
the more significant findings are summarized below:

   •	 The post did not have signatures on file of staff authorized to approve
      payments.

   •	 The post did not review the adequacy of the Volunteers’ settling-in allowance
      and did not complete an independent survey of the living allowance in FY
      2006 to ensure that the allowances were reasonable and based on current
      local market costs. In addition, the post had not reviewed Volunteer travel per
      diem rates in over four years and they were outdated.
   •	 The post’s property inventory listing included items that had been disposed.
   •	 Staff did not always submit their travel vouchers within five workdays of a
      trip’s completion as required by Peace Corps guidance. In addition, we noted
      errors in some staff’s international travel vouchers that were not identified
      during the post’s review process.
   •	 The medical unit’s inventory listing of supplies did not include expiration
      dates. Further, the listing contained incorrect data related to pharmaceuticals
      on hand.

Management concurred with 13 recommendations. At the end of the reporting
period, all 13 recommendations are closed.




  16              Semiannual Report to Congress   April 1, 2008 - September 30, 2008
                        PC/South Africa: Follow-Up Audit

As part of our continuing oversight responsibilities, we conducted a follow-up audit
in May 2008 to our audit performed in February – March 2006.

During our follow-up audit, we verified that appropriate action had been taken on 18
of the 29 audit recommendations in our October 2006 report. We determined that
11 recommendations required additional action, and we reopened them. The post
subsequently provided us with documentation showing that it had taken appropriate
action on all of the reopened recommendations, as a result, we closed them.

At the end of the reporting period, all 29 recommendations are closed.

                            PC/Vanuatu: Follow-Up Audit

As part of our continuing oversight responsibilities, we conducted a follow-up audit
in September 2008 to our audit performed in August 2005.

During our follow-up audit, we verified that appropriate action had been taken on
17 of the 28 audit recommendations included in our December 2005 report. We
determined that 11 recommendations required additional action, and we reopened
them. The post subsequently provided us with documentation prior to the issuance
of the follow-up report showing that it had taken appropriate action on two
recommendations, and as a result, we closed them.

At the end of the reporting period, 19 recommendations are closed and nine remain
open.




     Peace Corps Office of Inspector General                                    17
           Program Evaluations

                                        Overview

The Peace Corps’ OIG Evaluation Unit provides senior management with
independent evaluations of all management and operations of the Peace Corps,
including overseas posts and domestic offices. OIG evaluators identify best practices
and recommend program improvements to comply with Peace Corps policies.

Our current focus strives to provide management with a comprehensive assessment
of how overseas posts and programs are functioning. Evaluations are conducted
under the direction and guidance of the Assistant Inspector General for Evaluations.
While one evaluator will conduct an evaluation overseas at a post where less than 100
Volunteers serve, a team of two or more evaluators will conduct evaluations for larger
posts or multi-post evaluations.

Posts evaluations include a review of Agency documents provided by headquarters
and post staff and headquarters interviews with management staff representing the
region and the Center for Field Support and Applied Research. Once in-country,
evaluators review the Volunteers’ sites and assignments, their safety and security,
the quality of their training, the quality of the support provided to them, and
the adequacy of the post’s administrative infrastructure to manage the program.
Evaluators interview appropriate embassy and host country representatives, Peace
Corps staff, and Volunteers at their sites. The Volunteers we visit are determined by
a stratified judgmental sample of 20% of currently serving Volunteers based on their
length of service, site location, project focus, gender, age, marital status and ethnicity.
Evaluators conduct Volunteer interviews at the Volunteers’ homes and inspect the
homes using post-defined site selection criteria. The period of review for a post
evaluation is one full Volunteer cycle (typically 27 months). For post evaluations, we
use the following researchable questions to guide our work:
     •	 To what extent has the post developed and implemented programs intended
        to increase the capacity of host country communities to meet their own
        technical needs?
     •	 To what extent has the post implemented programs to promote cross-cultural
        understanding?
     •	 To what extent does training provide Volunteers the necessary knowledge,
        skills, and attitudes to integrate into the community and perform their jobs?
     •	 To what extent has the post provided adequate support and oversight to
        Volunteers?
     •	 To what extent are post resources and agency support and oversight effectively
        aligned with the post’s mission and program, and agency priorities?

18                Semiannual Report to Congress   April 1, 2008 - September 30, 2008
   •      Is the post able to adequately administer the PEPFAR program, support
          Volunteers, and meet its PEPFAR objectives? (Only applicable to posts
          receiving PEPFAR funds)

Peace Corps’ OIG evaluations are conducted in accordance with the Quality
Standards for Inspections, issued by the President’s Council on Integrity and
Efficiency. The findings and recommendations provided in our evaluation reports
are reviewed by agency stakeholders affected by the review to ensure: (1) that our
recommendations are feasible and(2) that our reports are useful to the Agency in its
effort to strengthen internal controls and correct deficiencies.


                          Summary of Program Evaluations

                     Peace Corps/Albania: Program Evaluation

We issued our evaluation of Peace Corps/Albania in August 2008. Peace Corps’s
program in Albania began in 1992. In 1997, the Peace Corps/Albania program was
suspended and Volunteers returned in 2003. During fiscal year 2007, 67 Volunteers
worked in three projects: English Education, Health Education, and Community and
Organization Development.

Our evaluation of Peace Corps/Albania covered fiscal years 2006 and 2007. We
found that the post’s site selection system and documentation were comprehensive
and had potential merit for other Peace Corps posts. However, we believe that the
system could be supplemented with more effective control procedures to preclude
situations where Volunteers arrive at their sites without clear, workable roles. Our
evaluation also identified the following opportunities to improve the effectiveness of
the Peace Corps program in Albania:
   •	 Establish quality control procedures to better assure that Volunteers are
      assigned to clear, workable roles, and better monitor Volunteer “secondary”
      activities.
   •	 Establish a system to formally evaluate individual trainers.
   •	 Explore ways to increase Volunteers’ sense of staff support. Specific issues
      where Volunteers expressed concern about insufficient staff support related to:
      “homestay” policies, reporting of “incidents”; and replacement of cell phones.
   •	 Perform consolidation tests of the Emergency Action Plan.
   •	 Determine the feasibility of an additional medical facility.
   •	 Assess the adequacy of per diem rates for staff travel outside of Tirana.

Management concurred with 13 of the 14 recommendations and did not concur with
one recommendation. At the end of the reporting period, nine recommendations are
closed and five remain open.



       Peace Corps Office of Inspector General                                    19
           Volunteer Safety And Security: Program Evaluation

We issued our evaluation of the Agency’s safety and security system following a year
long review in August 2008. Our evaluation reviewed the policies and procedures
that address the following five tenets that the Agency has identified as enhancing the
safety and security of its Volunteers:
     •	 Responding to crimes and reporting and analyzing crime statistics
     •	 Monitoring, assessing, and disseminating information on the security
        environment
     •	 Safety and security training
     •	 Development, monitoring, and inspection of Volunteer sites
     •	 Planning for emergencies through Emergency Action Plans

We found that the Agency had successfully conducted 39 evacuations of
approximately 2,600 Volunteers from 1997 to 2007. Additionally, the 2004 and
2006 biennial Volunteer surveys conducted by Peace Corps reported that over
90% of Volunteers rated the efficacy of safety and security training during pre-
service training as “adequate,” “effective,” or “very effective.” Results from the 2007
Close of Service Survey, which Volunteers complete just prior to returning to the
U.S., reflected similar results. In addition, 87% of the Volunteers we interviewed
echoed the survey results by expressing satisfaction with safety and security training.
However, we also noted that the following areas could be improved:
     •	 Agency crime data was unreliable. In our sample of data from 10 posts, we
        found that 56% of incident reports between February 2006 and June 2007
        contained at least one error in a critical data field. Additionally, six of the
        ten posts in our sample did not timely report violent crimes to headquarters;
        one post took an average of 58 days to report violent crimes via the Crime
        Incident Reporting Form.
     •	 Welcome Books provided information on global safety and security risk
        factors but they did not provide country-specific risk factors. This could be
        misleading to potential Volunteers as global safety and security risk factors
        may be very different than the country where they are assigned.
     •	 At the time of the OIG visits, 40% of the Volunteers’ houses did not meet
        the posts’ own criteria for safe housing and were often incomplete.
     •	 Emergency Action Plans (EAPs) did not always contain essential information
        to facilitate Volunteers’ speedy and safe consolidation or evacuation from
        their country of service; 95% of EAPs worldwide did not contain contact
        information for ground transportation, and 35% did not include information
        on charter flight options. In addition, not all EAPs were tested in accordance
        with Agency policy or under realistic conditions.
     •	 Peace Corps Safety and Security Officers recommendations were not
        systematically tracked and were often not implemented due to budgetary

20                 Semiannual Report to Congress   April 1, 2008 - September 30, 2008
       considerations or lack of consensus between field and headquarters
       management.

Management concurred with 10 of the 20 recommendations, partially concurred
with eight recommendations, and did not concur with two recommendations. At the
end of the reporting period, six recommendations are closed and 14 remain open.




    Peace Corps Office of Inspector General                                 21
                          Investigations

                                              Overview

The Office of Inspector General is charged by law  with the conduct of criminal
investigations. Specifically, the Inspector General is authorized by statute to develop
policy for the conduct of investigations, and to coordinate and supervise both
domestic and overseas investigations. The Investigation Unit responds to allegations
of administrative and criminal wrongdoing, and fraud. The OIG also investigate
ethics and conflicts of interest violations. In the conduct of these investigations,
criminal investigators work with other offices within the Peace Corps and/or with
other agencies, including Immigration and Customs Enforcement (ICE), the
State Department’s Diplomatic Security Services (DSS), the Federal Bureau of
Investigation (FBI), the Department of Labor, and the Department of Justice public
prosecutors, as appropriate.

Allegations are forwarded to the Office of Inspector General through various means,
including: OIG audits and evaluations, hotline complaints, Volunteers, Trainees,
staff, other federal entities, and the general public.

Until September 1, 2008, the Investigation Unit also responded to violent crimes
against Volunteers. The OIG managed and coordinated the Agency’s part of the
investigative and prosecution process of violent crimes against Volunteers from the
reported initial incident to the closing of the case. To ensure our effectiveness in the
area of violent crimes, the OIG operated a 24 hours a day, seven days a week, duty
officer system whereby country directors could make direct and immediate contact
with criminal investigators in this office to coordinate responses to violent crimes
against Volunteers and assist the victims of crime. The function of responding to
violent crime has been transferred to the Peace Corps Office of Safety and Security.

    Investigation of Embezzled Funds at a Southern African Post

Suspicious financial records provided to the OIG resulted in an audit and
investigation of a cashier in a southern African country. In June 2008, the post’s
administrative officer and an OIG auditor performed a cash count and reconciliation
of the cashier’s imprest fund. The cash count and reconciliation indicated that the
fund was in balance; however, the cashier had not properly entered and documented
two host country checks in the post’s financial records.

The cashier was subsequently questioned about the integrity of the imprest fund by
an OIG investigator when he failed to document required procedures and properly
account for the two checks. The cashier, who is responsible for the imprest fund’s


      22                Semiannual Report to Congress   April 1, 2008 - September 30, 2008
day-to-day activities, was reluctant to acknowledge ulterior motives in this matter.
The value of the imprest fund account ranged between $30,000 and $60,000.

The cashier provided inadequate explanations to the OIG as how the imprest fund
was seemingly in balance when he had not properly accounted for two checks.
The investigation disclosed that at least seven transactions had been voided by the
cashier and no collection entries were made in the accounting system. The value of
the seven transactions was approximately $17,299.22. Furthermore, the audit and
analysis of post records found an additional $37,847.18 in unrecorded host country
contributions.

The cashier had over 18 years of accounting and cashiering experience with the Peace
Corps and a local bank. Since he was in a position to alter and destroy financial
documents that could be used as evidence of his crimes, he was removed from the
cashier’s office and the Peace Corps premises. He was subsequently detained by local
police authorities on theft and embezzlement charges. He is currently being tried in a
local court for fraudulent accounting.

    Investigation of Unethical Behavior at an East African Post

In May 2008, the Office of Inspector General received a letter from a Peace Corps
staff member serving in East Africa regarding the misbehavior of a senior official at
the post. In June 2008, the post’s medical officer met with the OIG at Peace Corps
headquarters. The post’s medical officer brought evidence that the senior official had
an inappropriate relationship with a Peace Corps Volunteer and information about
illegal drug use by this official.

In June 2008, the OIG visited the East African post and began an intensive effort
to determine whether these allegations were valid. In addition to electronic mail
and document review, the OIG conducted over 24 interviews with post staff,
Volunteers, and associates of the senior official. Although the senior official denied
the allegations concerning the relationship with the Volunteer and the use of
illegal drugs, our investigation revealed evidence that conflicted with his assertions.
Furthermore, the investigation disclosed numerous additional irregularities associated
with this official’s tenure at the post. The senior official resigned prior to the
conclusion of our investigation.

                    Investigation of Metro Transit Benefits

In April 2007, the Government Accountability Office issued a report on the fraud
and abuse of the federal transit benefits program by federal workers. This report
prompted the Peace Corps/OIG to review its own Agency employees who receive
metro benefits for indicators of fraud and abuse of the Agency’s transit benefits
program.


     Peace Corps Office of Inspector General                                      23
The OIG has gathered data on the Agency’s employees who are receiving benefits.
The initial investigation did not disclose any fraudulent activity associated with
individual’s receiving both parking privileges and Metro benefits; the investigation
continues.

 Investigation of Federal Employees’ Compensation Act Recipients

The Investigation Unit monitors Federal Employees’ Compensation Act (FECA)
claims. At present, the Peace Corps has approximately 1,300 open FECA claims and
the Agency spends roughly $11 million dollars for former Volunteers and staff who
were injured or became ill on the job or during their service. Unlike other federal
entities, per section 10.730 Workers Compensation Programs, “[a]ny injury sustained
by a volunteer or volunteer leader while he or she is located abroad shall be presumed
to have been sustained in the performance of duty, and any illness contracted during
such time shall be presumed to be proximately caused by the employment.” This also
includes any pre-existing condition that may have been aggravated by Peace Corps
service. In addition, the Peace Corps’ five-year rule and Volunteer special status under
the FECA program limit the possibility that these individuals will return to work.

During this reporting period, the OIG performed 23 death queries on individuals
receiving FECA benefits. The OIG also traveled to the Office of Workers’
Compensation Second District to review claimant files. Of special interest were
claims deemed questionable due to the high compensation benefits received while
the medical bills of the claimants were comparatively low. The OIG also made home
visits to suspect claimants in order to check on their living/working status.


                    Investigation of a Missing Volunteer

The OIG continued its investigation of a missing Volunteer. In August 2008, the
OIG forwarded two new leads concerning his whereabouts to the Regional Security
Officer (RSO) in La Paz, Bolivia. Later that month, an OIG staff member was sent
to the U.S. Embassy in Bolivia to copy FBI interviews and historical records from
the numerous government agencies that have been involved in separate and joint
investigations.

The OIG forwarded maps of the Zongo valley and a video copy of the multi-agency
search that was conducted in September 2007, to the Volunteer’s family. The OIG
had organized experts from the National Park Service, State Department, FBI,
Rhode Island State Police, Bolivian authorities, and search dogs, to locate the missing
Volunteer.

As of September 15, 2008, Peace Corps operations in Bolivia were temporarily
suspended to ensure the safety of Volunteers serving there. The OIG’s investigative
efforts have been suspended pending receipt of additional information.


  24               Semiannual Report to Congress   April 1, 2008 - September 30, 2008
                      Violent Crime Against Volunteers

Prior to September 1, 2008, overseas posts were required to immediately report any
of the following violent crimes against Volunteers to the OIG and RSO:
    •	   Volunteer Death (under any circumstances)
    •	   Kidnapping
    •	   Rape and Attempted Rape
    •	   Major Sexual Assault
    •	   Robbery
    •	   Aggravated Assault
    •	   Major Physical Assault
    •	   Burglary with Volunteer/Trainee present (or attempted)
    •	   Death Threat
    •	   Intimidation/Stalking (also domestic violence)

For overseas crimes, the OIG partnered with the Criminal Investigative Liaison
Branch of the Bureau of Diplomatic Security to facilitate communications and
support to the victim and to the Peace Corps post. We had also established a
dedicated law enforcement liaison line (911@peacecorps.gov) for other federal and
foreign law enforcement agencies to access OIG investigative personnel on a 24/7
basis.

During this reporting period, approximately 216 preliminary inquiries were opened,
which resulted in the initiation of 12 investigations.

                                         Closed Cases

•	 Previously, we reported that a Volunteer serving in the Pacific was raped. A
   perpetrator was identified and DNA samples were obtained. This case was the
   first time that DNA evidence was presented in the country’s court. Throughout
   this investigation, the OIG coordinated with the host country prosecutor, and
   assisted the former Volunteer with security, trial preparation, and logistics, to
   promote a successful outcome.

	   During this reporting period, the perpetrator was found guilty on five charges of
    rape and one charge of kidnapping. He was sentenced to 16 and one-half years in
    prison for the rape, assault, and abduction.

•	 Previously, we reported that a Volunteer serving in a Caribbean country was
   the victim of an attempted rape. Local police subsequently identified and
   apprehended a suspect.

	   During this reporting period, the OIG criminal investigator accompanied the
    Volunteer back to country for trial. The suspect was found guilty and sentenced
    to 10 years imprisonment.
            Peace Corps Office of Inspector General                                     25
•	 In 2006, a female Volunteer serving in West Africa was brutally beaten and raped
   by two men. The OIG coordinated with the local Peace Corps office and the U.S.
   Embassy, and worked to retain a local lawyer.

	    During this reporting period, the OIG learned that one of the men had been
     convicted and was serving time in prison. The second suspect was convicted in
     absentia, but he had not yet served any prison time. The OIG learned that the
     government had moved forward with an in-person prosecution against the second
     suspect. An OIG investigator traveled with the Volunteer back to the country
     on two occasions during this reporting period to assist with having documents
     translated, meet the local attorney to develop a trial strategy, provide evidentiary
     photographs, and advocate on behalf of the Volunteer. On several occasions, the
     Volunteer was required to meet with local trial judges to assert her accusation
     against the suspect in his presence. The second suspect was sentenced to two years
     in prison and fined approximately $1,329.87. However, the OIG learned that the
     second suspect subsequently appealed the trial verdict and is out on bail while a
     judicial board reviews the conviction.

•	 During a previous reporting period, a female Volunteer serving in Asia was raped
   by a host country national in the foyer of an apartment building. The police
   questioned the suspect, and he admitted to the attack. However, he later recanted
   his confession and claimed the encounter was consensual.

	    During this reporting period, OIG retained an attorney experienced in sex crime
     cases who agreed to work pro bono with the local prosecutor’s office to maximize
     chances of conviction. An OIG criminal investigator traveled to the country in
     anticipation of legal proceedings and met with the attorney, several Volunteer
     witnesses, the Volunteer victim, and members of the prosecutor’s office. Although
     the trial commenced as scheduled, the judge delayed the case because the court-
     appointed translator did not have sufficient English language skills to effectively
     translate testimony.

	    During the interim time period, the suspect’s family mounted a public attack
     against the Volunteer, including staging a protest outside of the Peace Corps
     office. The local press also ran several articles sympathetic to the suspect in which
     the Volunteer’s name was identified. The Volunteer chose to terminate her Peace
     Corps service early and declined further participation in the criminal case,
     citing security concerns. The defendant was found not guilty.

•	 During a previous reporting period, a Volunteer serving in the Eastern Caribbean
   was the victim of an aggravated assault. A police prosecutor was assigned to the
   case and the trial was presented in the magistrates’ court. However, the police
   prosecutor was not prepared for the trial and subsequently withdrew the charges
   against the defendant.


    26               Semiannual Report to Congress   April 1, 2008 - September 30, 2008
	   During this reporting period, the OIG worked with the U.S. Embassy, the
    local Peace Corps office, and the Volunteer to determine whether the case could
    be retried. While the local government acknowledged that that the trial had
    procedural errors, including being assigned to an incorrect trial court, the local
    government declined to retry the case. The Volunteer informed the OIG that he
    considered the matter closed as he had already returned to the United States.

•	 Previously, we reported that a female Volunteer serving in Central Asia had
   advised the OIG that she had been raped and robbed by multiple host country
   males over the course of two nights. The male suspects involved in the rape
   were as young as 15 years old. Complications in this case arose because the male
   suspects were minors. The case was forwarded to the local prosecutor’s office
   where charges against the five host country national males were declined due to
   insufficient evidence.


                                         Active Cases

•	 Previously, we reported that the OIG was notified that a Volunteer serving in
   a southern Asian country was missing. Foul play had been suspected and an
   extensive investigation and search commenced. The Volunteer’s remains were
   found in remote, shallow grave. A suspect was identified, arrested, and remained
   in custody while he was tried. The OIG retained a local attorney with extensive
   experience in prosecuting homicide cases.

	   In June 2008, the court convicted the defendant of murdering the Volunteer.
    The defendant was sentenced to life imprisonment without parole. The OIG
    continued to coordinate with the host country authorities and the U.S. Embassy
    to ensure that the convicted defendant was transferred to a penal facility. The
    OIG learned during this reporting period that the defendant and his defense
    team are appealing the conviction and life sentence. The OIG has retained an
    attorney to represent the family and deceased Volunteer’s interests throughout the
    appeal process.

•	 Previously, we reported that a Volunteer serving in a South American country
   was fatally shot by a booby-trap gun. The OIG Investigations Unit responded
   by sending a team to investigate. The owner of the gun was placed in custody by
   local police for firearms violations. In a statement provided to police, the owner
   of the gun said that he had installed the gun in the vegetable garden to shoot wild
   animals.

	   During this reporting period, the local police completed their investigation; the
    suspect was charged with several crimes and detained for 45 days. The case has
    been turned over to the Attorney General for prosecution; the suspect has been
    released pending trial. To date, the local court has not ruled on this matter.


       Peace Corps Office of Inspector General                                      27
•	 During the previous reporting period, an attempted rape of a Volunteer occurred
   in a Central American country. The Volunteer fought back and her neighbors
   assisted her. The Volunteer reported the incident to the police. During the
   preliminary hearing the Volunteer positively identified the suspect and he was
   placed in police custody. The OIG and the post worked together to retain local
   counsel. The judge presiding over the case requested the results of the DNA tests
   in this case. The results are still pending.

•	 Previously, we reported that a Volunteer was raped at another Volunteer’s home
   by an acquaintance in a South American country. The defendant’s DNA was
   collected and the OIG transported the DNA samples to the FBI laboratory for
   analysis. During this reporting period, the FBI analysis concluded that the sample
   DNA from the rape kit and the defendant’s DNA were a match. This case is
   ongoing.

•	 Previously, we reported that a Volunteer was raped in a South American country
   by host country nationals. One suspect, a local police officer, was apprehended.
   An OIG criminal investigator traveled to the country to coordinate investigative
   activities with the Department of State’s Assistant Regional Security Officer,
   local police, and a prosecutor. During this reporting period, an OIG criminal
   investigator accompanied the Volunteer back to country to provide testimony at
   trial. The trial is ongoing.

•	 Previously, we reported that a Volunteer was the victim of an attempted rape in
   a South American country. An OIG criminal investigator coordinated a meeting
   with the Volunteer and a forensic sketch artist to prepare a composite sketch of
   the suspect.

	  During this reporting period, local police actively searched for the suspect using
   the composite sketch. They have forwarded photographs of potential suspects via
   email to the OIG for review with the Volunteer. The Volunteer has not confirmed
   the identity of the suspect from these images. The investigation is ongoing.
•	 In a South American country, a Volunteer was raped. An OIG criminal
   investigator met with a local attorney who had coordinated with local authorities
   to apprehend the suspect. The suspect was incarcerated pending trial; but during
   civil unrest and political protests, prison guards abandoned their posts and the
   suspect fled from jail with other escaping inmates. The suspect is still at large.




    28             Semiannual Report to Congress   April 1, 2008 - September 30, 2008
              Title 18 Criminal And Other Investigations

                      Investigations Leading To Disposition

•	 We previously reported that an OIG criminal investigator was assisting the
   Department of Homeland Security’s investigation of a Peace Corps employee,
   from an African country, who had been apprehended at JFK International
   Airport for smuggling two kilograms of heroin. The employee was on annual
   leave when she was stopped by Immigration and Customs Enforcement (ICE)
   agents.

	   During this reporting period, the employee was tried, convicted, and sentenced
    by a federal judge to 27 months incarceration, three years probation, and was
    assessed a $100 court fee. She will be deported to her home country once she
    completes the prison sentence. Our investigation determined that no Peace Corps
    resources or official cover were involved in the drug smuggling activity. The OIG
    assisted with ICE’s investigative efforts and coordinated with the U.S. Embassy to
    ensure that details of the crime were shared with the employee’s appropriate home
    country authorities.

•	 During a previous reporting period, an OIG criminal investigator was dispatched
    to investigate allegations against a Volunteer serving in West Africa. The
    Volunteer’s landlord alleged that the Volunteer was engaging in inappropriate
    sexual contact with a 13-year-old host country national.

	   During this reporting period, the OIG concluded its investigation and
    determined that no wrongdoing occurred. Witness testimonies also failed to
    corroborate any allegations of misconduct by the Volunteer. Furthermore, the
    alleged victim denied the allegations. The Volunteer was moved to a new location
    and cautioned to be more sensitive to host country norms.

                                   Active Investigations

•	 The OIG was alerted of an image of possible child pornography found on a
    photocopier in a Pacific region Peace Corps office. Working with authorities from
    ICE and the National Center for Missing and Exploited Children, the image was
    determined to be consistent with adult erotica, not child pornography. With the
    assistance of Diplomatic Security Service’s Computer Investigations and Forensics
    Unit, computer hard drives were seized from the post. These hard drives appeared
    to contain numerous pornographic images. To date, the investigation has found
    that these images were attached to only one Peace Corps employee user profile.
    The investigation is ongoing.




     Peace Corps Office of Inspector General                                    29
•	 An OIG criminal investigator assisted the U.S. Marshals Service with locating a
   Peace Corps applicant who was wanted in connection with a felony. Investigative
   activities are ongoing.

•	 Peace Corps management at a Caribbean post received complaints of a possible
   PROTECT Act violation involving a male Peace Corps Volunteer. The allegation
   surfaced when fellow Volunteers located an internet “blog” authored by the
   suspect Volunteer which made reference to his having had a sleepover with a ten-
   year-old host country national male. The suspect Volunteer’s blog also contained
   references to hugging and kissing local young males. The investigation is ongoing.

•	 During this reporting period, the OIG received an anonymous complaint
   alleging that local staff in a Peace Corps office abused their authority, allowed
   nepotism to occur, intimidated employees, profited from their government
   position, and abused their use of government vehicles. OIG staff members
   traveled to this South American country to investigate these allegations, which
   were subsequently determined to be unfounded.




  30               Semiannual Report to Congress   April 1, 2008 - September 30, 2008
         TABLE 1: List of Reports : Audits and Evaluations



                                              Audits
Peace Corps/Azerbaijan                                             Audit
Peacec Corps/Botswana                                              Audit
Peace Corps/El Salvador                                            Audit
Peace Corps/Philippines                                            Audit
Peace Corps/South Africa                                 Follow-up Audit
Peace Corps/Vanuatu                                      Follow-up Audit


                                 Program Evaluations
Peace Corps/Albania                                    Program Evaluation
Volunteer Safety and Security                          Program Evaluation




    Peace Corps Office of Inspector General                         31
           TABLE 2: Reports Issued with Questioned Costs or
                      Funds Put to Better Use


                                                                        Value                    Note

Audit of
Peace Corps/Azerbaijan 		 $	                                            7,060.00             	    1

Audit of
Peace Corps/El Salvador 	                                        $	    30,165.65		 2

Total of Reports Issued with Costs   	
Questioned or Funds Put to Better Use			$	 37,225.65


Note:
1.   Host country contributions.
2.   Undeposited funds. Uncollected funds. Unapproved bonuses.




     32               Semiannual Report to Congress     April 1, 2008 - September 30, 2008
                   TABLE 3: Status of Reports Issued by
                      OIG with Costs Questioned




                                                        Number of      Value
                                                     		Reports

A. Reports issued prior to this period
     For which no management decision had been	
     made on any issue	                                  0
     For which some decisions had been made
     on some issues	                                     0

B. Reports issued during the period	                     1    	     $12,000.00

Total of Categories A and B	                             1    	     $12,000.00

C.	For which final management decisions were made	
	 during this period	                                    1    	     $12,000.00

D.	For which no management decisions were made
	 during the period	                                     0

E.	 For which management decisions were made
    on some issues during the period	                    0	

TOTAL OF CATEGORIES C, D, and E	                         1    	     $12,000.00




  Peace Corps Office of Inspector General                            33
                TABLE 4: Status of Reports Issued by
                 OIG with Funds Put to Better Use



                                                          	
                                                                      Number of          Value
                                                                      Reports

A. Reports issued prior to this period	
     For which no management decision had been
     made on any issue	                                                    0
     For which some decisions had been made
     on some issues		0                                                                     0

B. Reports issued during the period	                                       2 		 $25,225.65

Total of Categories A and B	                                               2		 $25,225.65

C. For which final management decisions were made
  	during this period 	                                                    2	         $25,225.65

D.	For which no management decisions were made
 	 during the period	                                                      0               0

E. For which management decisions were made
   on some issues during the period	                                       0               0

TOTAL OF CATEGORIES C, D, and E	                                           2	         $25,225.65




34               Semiannual Report to Congress   April 1, 2008 - September 30, 2008
         TABLE 5: Reports with Recommendations on which Corrective
                      Action has not been Completed


                         Recommendations open 60 days or more
Report                                   				Date Issued                     Number of Open
                                        											                           Recommendations

None
                         Recommendations open 120 days or more
Report                                                 	       Date Issued 	 Number of Open
                                                                             Recommendations

None
                         Recommendations open 180 days or more
Report                                       	                 Date Issued   	 Number of Open
                                                           	                    	Recommendations

Travel Policies and Procedures: Audit         	    6/27/2006                         	3
PC/China: Audit                                 	  3/30/2007                    	     1
PC/Panama: Audit                 	                 6/22/2007                    	     2
PC/Eastern Caribbean: Evaluation            	      6/25/2007     	                    4
FY 07 Agency Financial Statements: Audit	         11/13/2007 	                       11
PC/Eastern Caribbean: Audit					12/20/2007	                                          25
Federal Information Security Management Act        1	 /15/2008 	                      5
PC/Peru: Audit	                                    3/17/2008	                         1
Medical Clearance System: Evaluation	              3/31/2008	                         9




             Peace Corps Office of Inspector General                                 35
                 TABLE 6: Summary of Investigative Activity


Cases                                                               	NUMBER
Cases opened as of 4/1/2008                                            	 60
Cases opened during 4/1/2008 - 9/30/2008                                	 13
Cases closed that were previously opened                               	 6
Cases opened and closed during 4/1/2008 - 3/31/2008                   	 0
Total open cases as of 3/31/2008                                      	 57
Referrals for Department of Justice Prosecution                         	 0
Referrals for Agency Administration Action                              	 4
Referrals to Others Agency                      	                          1

Domestic Court Actions                                          	    NUMBER
Trial(s) Pending                       	                                   0
Convictions                    	                                           1
Acquittals 	                                                               0
Judgments 	                                                                0
Fines/Restitutions 	                                                       1

Overseas Court Actions                                     	         NUMBER                  VALUE     	

Trial(s) Pending         	                     	                           6		                $1,330
Convictions 	                                                              4
Acquittals 	                                                               0
Judgments                	                                                 0
Fines/Restitutions                 	                                       1

Monetary Results                                                    	 NUMBER

Annual Savings 	                                                           0
Recoveries/Restitution                     	                               0
Cost Avoidance                 	                                           0

ADMINIstrative Actions	NUMBER
Employees (Resignations and Terminations)              	                   3
Other Employee Actions          	                                          0
Other Persons/Businesses     	                                             1




   36                  Semiannual Report to Congress           April 1, 2008 - September 30, 2008
   TABLE 7: Summary of Hotline and Other Complaints




Complaints Received                                   10
Complaints Closed                                     10
Awaiting OIG Action                                    0
Resulted in Investigations                             4
Resulted in Audits                                     1
Resulted in Evaluations                                0
Referred to Agency Management                          0
Referred to Other Agency                               1
No Action Needed                                       5




  Peace Corps Office of Inspector General       37
       TABLE 8: References to Reporting Requirements of
                  the Inspector General Act


The Inspector General Act of 1978, as amended, specifies reporting requirements for
Semiannual Reports to Congress. The requirements are listed below and indexed to the
applicable page.

Act Reference      Reporting Requirements                                                 Page

Section 4(a)(2)    Review of legislation and regulations                                 None
Section 5(a)(1)    Significant problems, abuses, and deficiencies                        6 – 21
Section 5(a)(2)    Significant recommendations for corrective actions                    6 – 21
Section 5(a)(3)    Prior significant recommendations on which corrective action
                   has not been completed                                                  34
Section 5(a)(4)    Matters referred to prosecuting authorities                           28 – 29
Section 5(a)(5)    Summary of instances where information was refused                     None
Section 5(a)(6)    List of audit reports, including evaluations, inspections, and
                   reviews                                                                 30
Section 5(a)(7)    Summary of significant reports                                        10 – 21
Section 5(a)(8)    Statistical table - questioned costs                                    32
Section 5(a)(9)    Statistical table - funds put to better use                             33
Section 5(a)(10)   Summary of previous audit reports without management
                   decisions                                                             None
Section 5(a)(11)   Significant revised management decisions                              None
Section 5(a)(12)   Significant management decisions with which the Inspector
                   General disagrees                                                     None
Section 5(a)(13)   Information under Federal Financial Management
                   Improvement Act of 1996                                               None




  38                Semiannual Report to Congress   April 1, 2008 - September 30, 2008
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.
Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or
unlawful activity involving Peace Corps program or personnel should call or
write the Office of Inspector General.

Call:
Main Office                  	 (202) 692-2900
Hotline                     	 (800) 233-5874


Write:
Peace Corps
Attn: Inspector General
1111 - 20th St., N.W.
Washington, DC 20526

Or

Peace Corps
Attn: Inspector General
P.O. Box 57129
Washington, DC 20037-7129


Email Hotline:                                OIG@peacecorps.gov




     Information received is held in confidence to the maximum feasible extent.
Peace Corps
Office of Inspector General
Paul D. Coverdell Peace Corps Headquarters
1111 - 20th St., NW
Washington, DC 20526
